No. _ _ _ __

IN THE SUPREME COURT OF THE UNITED STATES

ARNOLD COUNCIL,
Petitioner,

v.
UNITED STATES OF AMERICA,
Respondent.

On Petition for Writ of Certiorari to the United
States Court of Appeals for the Seventh Circuit

APPLICATION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS

Petitioner ARNOLD COUNCIL, by counsel, respectfully asks leave to file the
accompanying Petition for Writ of Certiorari to the United States Court of Appeals
for the Seventh Circuit without prepayment of costs and to proceed in forma

pauperis. Petitioner is indigent and proceeded in forma pauperis both in the trial
court and on appeal. Undersigned counsel of record was appointed in the district
court under 18 U.S.C. ยง 3599(a)(I)(A) and 18 U.S.C. ยง 3006A and in the Court of
Appeals under 18 U.s.C. ยง 3006A See Sup. Ct. R. 39.

1

Respectfully Submitted,

Law Office of Molly Armour
4050 N. Lincoln Avenue
Chicago, IL 60604
(773) 746-4849
armourdefender@gmail.com
Attorney for Petitioner Arnold Council
July 1, 2021

2

